BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae United States Senators
and Representatives Supporting Petitioners in 20-1434,
Leslie Rutledge, et al. v. Little Rock Family Planning
Services, et al., was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day and e-mail service to the following parties listed
below, this 13th day of May 2021:
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas. bronni@arkansasag.gov

Counsel for Petitioners
Kendall Kelly Alexis Turner
O'Melveny & Myers
1625 I St. NW
Washington, DC 20006
(703) 606-1934
kendallturner@omm.com

Counsel for Respondents

I
1

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

j 8790 Governor's Hill Drive

Suite 102
Cincinnati, Ohio 45249

Franklin Square

I 1300 I Street, NW, Suite 400E
Washington, DC 20005

Thomas R. McCarthy
Counsel of Record
Tiffany H. Bates
Antonin Scalia Law School Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
tom@consovoymccarthy.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 13, 2021.

~[11~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

.;--

/1 3 / Z/

Cl-~ '

[seal]

AMY TRIPLETT MORGAN
Attorney at Law

